Memorandum from the Office of the Inspector General



November 20, 2007

John E. Long, Jr., WT 7B-K

FINAL REPORT – AUDIT 2007-11198 – REVIEW OF RISK ASSESSMENT
PERFORMED ON PERSONALLY IDENTIFIABLE INFORMATION



Attached is the subject final report for your review. This report does not include any
recommendations and is to be used for informational purposes only. Accordingly, no
response is necessary.

Information contained in this report may be subject to public disclosure. Please advise
us of any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Phyllis R. Bryan, Project Manager, at
(865) 632-4043 or Jill M. Matthews, Director, Information Technology Audits, at
(865) 632-4730. We appreciate the courtesy and cooperation received from your
staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

PRB:SDB
Attachment
cc (Attachment):
     Steven A. Anderson, SP 5A-C
     William R. Brandenburg, Jr., MP 2B-C
     Peyton T. Hairston, Jr., WT 7B-K
     Tom D. Kilgore, WT 7B-K
     Janice W. McAllister, EB 7A-C
     Richard W. Moore, ET 4C-K
     Emily J. Reynolds, OCP 1L-NST
     OIG File No. 2007-11198
Review of Risk Assessment Performed on
 Personally Identifiable Information (PII)



        Audit 2007-11198
        November 20, 2007
Synopsis

     In summary,
         summary we found the (1) risk assessment methodology was consistent with
      National Institute of Standards and Technology (NIST) and Office of
      Management and Budget (OMB) guidance, and (2) the conclusions reached
      were reasonable.




                                                                                2
Background

     OIG Audit 2007
                 2007-10997,
                      10997 Review of Temporary Shares for Sensitive Information
                                                                        Information,
      found 32 instances of PII not properly secured on temporary share drives thus
      exposing the information to anyone with a TVA network ID.
     Information Services (IS) and Organization Security Officers (OSO) conducted
      subsequent reviews of the Nuclear temporary share drives and found 169
      additional instances of PII.
     In response to our findings, TVA management conducted a two-phase risk
      analysis on PII found stored on temporary share drives to determine the
      appropriate level of disclosure to individuals affected. Phase I reviewed the PII
      found during the OIG audit, and Phase II reviewed the PII identified during the
      IS/OSO review. Phases I and II utilized the same risk assessment methodology.
     TVA iissuedd a generall notification
                                tifi ti on ththe PII exposure b
                                                              butt d
                                                                   determined,
                                                                     t   i d b based
                                                                                   d on
      the risk assessment, individual notification was not needed.




                                                                                          3
Background

     To determine the risk level for each occurrence of PII
                                                         PII, TVA used the following
      risk model:
              Overall Risk = Weighted Threat Likelihood x Magnitude of Impact


     An Overall Risk Rating of:
       – “Low” would not require individual notification.
       – “Moderate”
          Moderate would not require individual notification unless there were
         verifiable instances of data capture and probable intent to misuse data.
       – “High” would require individual notification.




                                                                                       4
Objective, Scope & Methodology

   Objective
      Review the risk assessment methodology used to evaluate PII identified
       during OIG and IS reviews of temporary shares and determine if IS'
       conclusions regarding
                     g     g risk exposure
                                    p      of PII were reasonable.


   Scope & Methodology
      Interviewed IS personnel.
                      p
      Performed a walkthrough of the process used by the IS PII Assessment
       Team.
      Identified applicable criteria related to risk assessment and PII data breach
       response.




                                                                                       5
Objective, Scope & Methodology

   Scope & Methodology (cont’d)
      Compared the risk assessment methodology to (1) NIST SP 800-30, Risk
       Management Guide for Information Technology Systems and (2) OMB
       g
       guidance.
      Evaluated a sample of seven risk scores against supporting interview
       documentation.
      Reperformed risk ranking calculations for (1) our sample and (2) all Phase I
       interviews.
      Fieldwork was conducted between August and November 2007.
      This audit was performed in accordance with generally accepted
       government auditing standards
                            standards.




                                                                                      6
Finding
     In summary,
         summary we determined the (1) risk assessment methodology was
      consistent with NIST and OMB guidance, and (2) the conclusions reached were
      reasonable.
       –   The Risk Model used (Overall Risk = Weighted Threat Likelihood x Magnitude of
           Impact) is consistent with the NIST SP 800
                                                   800-30
                                                       30 guidance
                                                           guidance. In addition,
                                                                        addition this model is
           consistent with OMB guidance which recommends using a risk-based approach to
           determine whether notification of a breach is required.
       –   The criteria TVA developed for rating Threat Likelihood and Magnitude of Impact
           appeared reasonable.
                      reasonable
       –   TVA determined, based on the risk model, that none of the occurrences reached the
           risk level of high which would have required individual notification. In our review of a
           sample of the risk rating assignments, we noted one of the seven sampled was not
           calculated correctly;y; however,, when the rating
                                                           g was recalculated it did not change
                                                                                             g the
           overall risk rating for that occurrence. Therefore, we believe the conclusions reached
           based on the risk ratings and methodology used were reasonable.




                                                                                                      7
